                     U.S. DEPARTMENT OF THE INTERIOR
                         OFFICE OF INSPECTOR GENERAL




      PROGRAM ASSESSMENT RATING TOOL
                  PART REVIEW
    REVIEW OFBUREAU
              BUREAU      OF A
                    OF INDIAN INDIAN
                               FFAIRS AFFAIRS
       LAWREOAD                 PROGRAM
                MAINTENANCE PROGRAM
              NFORCEMENT




Y-RR-BIA-0004-2006                           MARCH 2007
               United States Department of the Interior
                                Office of Inspector General
                           Office of Program Analysis and Technical Support
                                      381 Elden Street, Suite 1100
                                        Herndon, Virginia 20170



                                                                        March 19, 2007



Memorandum

To:           Director, Bureau of Indian Affairs

From:         Donald W. Cairns
              Director, Program Analysis and Technical Support

Subject:      Program Assessment Rating Tool (PART) — Review of Bureau of Indian Affairs
              Law Enforcement Program (Report No. Y-RR-BIA-0004-2006)

       This final report presents the results of our review of the Bureau of Indian Affairs Law
Enforcement Program. It includes 25 suggestions for improving the Program in preparation for
review by the Office of Management and Budget (OMB). Following two suggestions regarding
the Program scope and the PART process, the report is organized under four recommendations
that OMB made after the last PART review.

        The legislation, as amended, creating the Office of Inspector General requires that we
report to the Congress semiannually on all reports issued. Accordingly, we will include
information from this report in our next semiannual report. Although a response is not required,
we suggest you direct the Deputy Director — Office of Justice Services to review this report and
inform you of his acceptance or rejection of each of our suggestions. We would appreciate your
informing us of any progress.

     We thank you and your staff for your valuable input during our review. If you have any
comments or questions regarding this report, please call me at 703–487–8011.
                         PART REVIEW:
      BUREAU OF INDIAN AFFAIRS LAW ENFORCEMENT PROGRAM

                                            TABLE OF CONTENTS

Introduction

        Why We Did This Review.................................................................... 1
        Objectives ............................................................................................. 1
        Scope and Methodology ....................................................................... 1

Results of Review

        Overview — BIA’s Law Enforcement Program .................................. 2

        OMB Recommendation #1, Develop a memorandum of
            understanding with the Department of Justice on the
            COPS Program ........................................................................... 4

        OMB Recommendation #2, Develop a strategic plan to guide
            management and performance improvement efforts ................. 7

        OMB Recommendation #3, Develop baseline data and
            targets for performance measures .............................................. 8

        OMB Recommendation #4, Develop a process for and schedule
            independent program evaluations............................................. 26

        Appendix A, History and Use of the PART ..................................... A-1

        Appendix B, Table of Suggestions ................................................... B-1




ON THE COVER: Photographs from tribal police departments operated under contract with the
Bureau of Indian Affairs. Credits, clockwise from top left: Passamaquoddy Tribe of Pleasant Point,
Washoe Tribe of Nevada and California, Hualapai Nation, Tonkawa Tribe of Oklahoma (Fort Oakland),
and Fort McDowell Yavapai Nation.
                                       INTRODUCTION

WHY WE DID THIS REVIEW

The Deputy Secretary of the Department of the Interior (DOI) asked the Office of Inspector
General (OIG) to review the progress made by programs designated Results Not Demonstrated
by the Office of Management and Budget (OMB). OMB uses the Program Assessment Rating
Tool (PART) to make these designations. More detailed information on the PART process can
                                     be found in Appendix A. We selected the Bureau of
WHAT IS THE PART?                    Indian Affairs (BIA) Law Enforcement Program (referred
                                     to as the Program), which is administered by BIA’s Office
Federal agencies use the Program     of Justice Services (OJS). OMB reviewed the Program in
Assessment Rating Tool (PART), a
standard questionnaire, to submit    2003 and plans to reassess in 2007.
information on federal programs to
the Office of Management and Budget.
                                       OBJECTIVES
OMB uses the information to
determine program effectiveness, to    Based on its review, OMB made recommendations that
recommend improvements for rated
programs, and to follow up on those    relate to 1) interagency coordination; 2) planning; 3)
improvements.                          performance measurement; and 4) program evaluation.
                                       The objectives of our review were to determine what
The ExpectMore.gov Web site            progress BIA and OJS have made toward implementing
publishes PART results.                the OMB recommendations and to provide observations
                                       and suggestions that DOI and the Bureau can use in
See Appendix A for more information
on the history and use of the PART.
                                       preparing for upcoming PART reviews. We based our
                                       review and suggestions on OMB’s 2006 PART guidance.

SCOPE AND METHODOLOGY

To meet the objectives, we interviewed Bureau and Department officials; reviewed and analyzed
Program documentation; and completed a limited review of related literature in the fields of
planning, performance measurement, program evaluation, and law enforcement. We also visited
the BIA Law Enforcement District 1 Office, Turtle Mountain Agency, and Rosebud Sioux Tribal
Law Enforcement Services. We conducted our review from July to October 2006, in accordance
with the “Quality Standards for Inspections” established by the President’s Council on Integrity
and Efficiency.
                                       RESULTS OF REVIEW
Based on its 2003 PART assessment, OMB made a number of recommendations to improve
Program operations. We reviewed the Program in 2006 and observed some progress toward
implementing each of these recommendations. We summarize below BIA key actions to date
and discuss suggestions to further strengthen management of the Program. Appendix B lists the
suggestions detailed in this report.

OVERVIEW: BIA’S LAW ENFORCEMENT PROGRAM
 The protection of lives,          The BIA Office of Justice Services (formerly the Office of Law
 resources and property is a       Enforcement Services) administers this Program and shares
 mission at the heart of Bureau
                                   responsibility with states and tribes for policing, criminal
 law enforcement and fully
 supports the Departmental goal    investigation, and corrections in Indian country. The budget of
 of improving the quality of life  approximately $200 million funds about 200 police departments
 for Indian communities.           and criminal investigations units. BIA operates around a
                                   quarter of these directly, and tribes under contract to BIA
             Indian Affairs budget operate the balance. More than a third of the reservations
          justification for FY2007
                                   served by the Program have detention centers to house inmates
who typically are awaiting adjudication or serving terms of less than 1 year. The Program
includes national offices in Washington, DC, and Albuquerque, NM, and operates the Indian
Police Academy, which provides both basic and specialized law enforcement training. See Table
1 for an organization chart representing major elements of the Program. OJS also administers
the Tribal Courts Program through a separate division.



                                        BIA Office of Justice Services
                                           — Washington DC —

     Indian Police          Law Enforcement                   Corrections                Professional
       Academy                  Division                        Division              Standards Division
    -Artesia, NM-          -Albuquerque, NM-                -Washington, DC-         -Albuquerque, NM-

                             6 District Offices             4 District Offices

                           149             42                59             19
                       Tribal Police   BIA Police          Tribal          BIA
                       Departments     Departments        Detention      Detention
                                                           Centers        Centers
                                                      *OJS also includes a Tribal Justice Support Division,
                                                     which is not included in the scope of this PART review.

                      Table 1. Organization Chart for BIA’s Law Enforcement Program.




                                                      2
SUGGESTION 1: Expand the scope of the PART to include public safety facilities funding
and activities.

Within the Office of the Assistant Secretary for Indian Affairs (AS/IA), the Office of Facilities,
Environmental, and Cultural Resources (OFECR) provides services that are integral to the
success of the Program in providing adequate detention facilities. While there is a PART on
record for school construction, the facilities funding for Public Safety and Justice does not seem
to fall within the scope of any of the programs reviewed under the PART process to date.
Therefore, the scope of the BIA Law Enforcement PART should be revised to include facilities
improvement and repair funded under the Public Safety and Justice budget program element.
See Table 2 for combined budget figures.


                                                                                                   FY2008
                   Program                      FY2004      FY2005      FY2006       FY2007
                                                                                                   Request

   BIA Law Enforcement                             172.5       180.1        193.4          201.6       221.8

   Public Safety and Justice
                                                     1.4          3.8         8.1          * 8.1       * 8.1
   Facilities Improvement and Repair

                                 Combined:         173.9       183.9        201.5          209.7       229.9

                         *Assumes no change in sub-allocation between law enforcement and fire safety.

          Table 2. Funding ($ millions) for the BIA Law Enforcement Program and Related Facilities.

While the tribes are replacing or rebuilding some facilities under DOJ grants, DOI is working to
rehabilitate others through OFECR-managed projects. DOI has published a 5-year deferred
maintenance schedule, which indicates the anticipated funding year for major projects at
specified facilities, including detention centers operated by, or contracted through, the OJS
Division of Corrections. The schedule would be more informative if accompanied by an
explanation of the ranking categories used, but it does provide a sense of expected progress
based on a fixed annual budget.

As illustrated in Table 3, OFECR reports results inconsistently.                    Good              14
Budget justifications from FY2006 and FY2007 contain                                Fair               6
conflicting reports of prior-year facilities conditions. Confusion                  Poor              30
on the part of AS/IA staff over whether the measure pertains only             Condition of facilities in 2004,
to detention centers, as in the definition provided to us, or to all            as reported in the budget
law enforcement facilities, including operations centers and                    justification for FY 2006
courthouses, may partly explain the discrepancies. These results                  Good               21
will need to be re-validated if they are used as baseline data for                Fair               12
assessing Program progress. Another potential problem is that,                    Poor               25
                                                                              Condition of facilities in 2004,
under the current methodology, OFECR could rate facilities with                 as reported in the budget
serious safety deficiencies in “good” condition as long as the                  justification for FY 2007
required repair is estimated to cost less than $2,500.                          Table 3. DOI Reports of
                                                                                   Facilities Condition.



                                                     3
SUGGESTION 2: Brief OMB on law enforcement jurisdiction in Indian country.
Jurisdiction in Indian country poses challenges for law enforcement because of the complex
blend of tribal sovereignty, federal authority, government-to-government and interagency
relationships, and individual officer credentials. All affect the ability of the Program to address
certain crimes committed by certain perpetrators involving certain victims in certain locations.
This is such a fundamental issue that an examiner may view this issue as a “major flaw” under:
       PART Question 1.4, Is the program design free of major flaws that would limit the
       program’s effectiveness or efficiency?
To meet this potential challenge in the context of the next PART review, Program officials
should be prepared to articulate how this blend of jurisdictional considerations 1) supports the
higher-order public policy goal of promoting tribal self-determination and 2) affects the scope of
Program activities.

OMB RECOMMENDATION #1:
DEVELOP A MEMORANDUM OF UNDERSTANDING WITH THE DEPARTMENT OF
JUSTICE ON THE COMMUNITY ORIENTED POLICING SERVICES PROGRAM.
Engaging communities as partners in crime prevention
is fundamental to the success of law enforcement. A       We believe that it is our responsibility to
                                                          keep the peace not only by enforcing the
community-oriented approach to policing calls for law     law, but also by working proactively with
enforcement to partner with community organizations       our communities to identify and reduce
and the public to identify and resolve problems           problems and by addressing their causes.
relating to public safety and security. Program
officials with whom we spoke seem to recognize this               OJS “Law Enforcement Handbook”
well, and say they meet frequently with residents,
Tribal Council members, and representatives of other public service functions such as healthcare,
education, and housing to discuss ways of reducing crime and maintaining a welcome and
effective law enforcement presence in Indian country.
In 2003, OMB cited the Program’s inability to plan for the expiration of grant funding as a
significant issue, and recommended the development of a formal agreement to coordinate
activities between BIA and the Department of Justice (DOJ) regarding the DOJ-funded
                           Community Oriented Policing Services (COPS) Program. This issue
                           relates to several PART questions, including:
                           PART Question 1.4, Is the program design free of major flaws that
                           would limit the program’s effectiveness or efficiency?
                           PART Question 1.5, Is the program effectively targeted, so program
                           resources reach intended beneficiaries and/or otherwise address the
                           program’s purpose directly?
                           PART Question 2.7, Are . . . needs presented in a complete and
                           transparent manner in the program’s budget?
     COPS Logo With        PART Question 3.5, Does the program collaborate and coordinate
       DOJ Seal
                           effectively with related programs?


                                                 4
BIA has made progress in implementing OMB’s recommendation by drafting an
information-sharing agreement. At the time of our inquiry, however, the draft MOU had been
under Office of the Solicitor review for some time, and officials were uncertain when it would be
finalized. The draft calls for:

            BIA to provide information to DOJ-COPS regarding crime rates and high-crime areas
            in Indian country;

            DOJ-COPS to notify BIA of proposed grants prior to award, allowing BIA to register
            any concerns; and

            DOJ-COPS to provide BIA information on grants awarded and grant applications
            rejected.

SUGGESTION 3: Implement and expand the interagency agreement.

BIA should work with DOJ and the Office of the Solicitor to finalize and ratify the MOU
without further delay. More importantly, OJS and the COPS Office should share information
and coordinate activities as outlined in the agreement.

Further, despite OMB emphasis on the COPS Program, it is important to note that COPS is only
one source of grant funding for law enforcement activities in Indian country. Even within DOJ,
other programs provide relevant support, and OJS should view these as partners. DOI has
attempted to address some of the resource shortfalls in the Program, with the FY2008 request
more than $50 million above the FY2004 level (see Table 2 on page 3). DOI’s investments have
been complemented in recent years by funding reserved for tribal grants at DOJ, though amounts
budgeted there have steadily declined, as noted in Table 4. In its budget justification for
FY2008, DOJ proposes to eliminate programs specifically targeting Indian country and to
encourage tribes to apply for other funding opportunities available to state and local
governments. How well the tribes will fare in competition with other communities remains to be
seen.



                                                                                                   FY2008
                      Program                        FY2004       FY2005     FY2006      FY2007
                                                                                                   Request
   DOJ: Correctional Facilities in Indian Country           2.0        4.9        8.9        0.0       0.0
   DOJ: COPS Tribal Law Enforcement                        24.7      19.7        14.8
   DOJ: Tribal Courts Assistance                            7.9        7.9        7.9       33.2       0.0
   DOJ: Indian Alcohol and Crime                            4.9        4.9        4.9
   DOJ: Juvenile Justice Tribal Youth Program              10.0        9.9        9.9        9.9       0.0
                   Total — Department of Justice:          49.5      47.3        46.4       43.1       0.0


                              Table 4. Budget ($ millions) for Selected Programs
                         with Funding Dedicated to Justice Services in Indian Country.



                                                       5
To provide a more comprehensive basis for resource planning, OJS should seek to expand the
scope of the MOU to include all DOJ grant programs open to applications from the tribes. This
would be one small step toward integrating management information to provide a more
encompassing view of Indian country needs. Once Program officials in both Departments have
agreed to a new, more comprehensive draft, BIA should work on a priority basis with the Office
of the Solicitor to finalize the agreement.

SUGGESTION 4: Collaborate with DOJ on planning.

OJS should meet regularly with DOJ officials to:

           review key planning processes and timelines for each program;

           coordinate the exchange of pertinent information; and

           identify common goals and priority initiatives for the upcoming planning cycle.

As the two agencies reach a common understanding of roles and available resources, OJS should
take DOJ funding estimates into account in developing long-term needs analyses and plans. This
more comprehensive base of information will improve OJS’s ability to plan for future needs and
to consult with the tribes on resource strategies.

SUGGESTION 5: Designate a partnership coordinator.

In addition to expanding coordination with DOJ grants programs, OJS should stress to OMB its
efforts to work with other Program partners. It is OJS policy to enter into agreements “. . . with
other federal, state, local, and tribal agencies to provide the most efficient and effective law
enforcement services to the residents of Indian country.” Perhaps the most essential example of
interagency cooperation in law enforcement is the cross-deputization agreement. The Bureau of
Justice Statistics (BJS) indicates that about 99 percent of law enforcement agencies in Indian
country have at least one such agreement with another tribal or public agency.

In our review, we found ample evidence of formal and informal coordination with related
programs at all levels of OJS. Officials at Program headquarters provided copies of several
interagency agreements currently in effect, including:

           a jurisdictional agreement with the Federal Bureau of Investigation (FBI);

           agreements with National Guard organizations to provide aviation support for law
           enforcement activities over tribal lands; and

           an agreement with the Indian Health Service for coordination of activities in support
           of Indian alcohol and drug abuse programs.




                                                6
Districts and individual field agencies also foster interagency relationships. BIA Law
Enforcement District 5 has entered into an agreement with the nonprofit Jason Foundation for
collaboration on teen suicide prevention programs in Indian country. BIA Law Enforcement
District 1 reports successfully negotiating deputization agreements among state, BIA, and tribal
law enforcement entities in Nebraska and has worked in partnership with the FBI, state police,
National Park Service (NPS), and the Indian Police Academy to provide in-service training for
all uniformed field personnel in the District, including tribal officers. The chief of police for the
Rosebud Sioux Tribe says he has been working to develop agreements with the nearby Pine
Ridge and Cheyenne Eagle Butte law enforcement agencies to conduct internal affairs
investigations for each other on cases that BIA’s Albuquerque office does not handle.

Finally, DOI’s Office of Law Enforcement, Security, and Emergency Management (OLESEM)
and the DOI bureaus that have law enforcement functions — i.e., BIA, NPS, the Bureau of Land
Management, the Bureau of Reclamation, and the Fish and Wildlife Service — are cooperating
to develop the Incident Management and Reporting System (IMARS), which will integrate
incident data across bureaus and enable the transfer of law enforcement statistical data to DOJ.

OJS should present these various agreements to OMB as evidence of collaboration and
coordination with related programs and designate a partnership coordinator. This coordinator
should inventory existing agreements and partnerships nationwide and maintain a consolidated
record of commitments made by and to Program partners.

OMB RECOMMENDATION #2:
DEVELOP A STRATEGIC PLAN TO GUIDE MANAGEMENT AND PERFORMANCE
IMPROVEMENT EFFORTS.

One key to achieving a successful PART rating is having clear priorities, organized in a
strategic plan and supported by an appropriate base of performance information. In its
FY2006 budget justification, BIA cites as one of its 2004 accomplishments “. . .
implementation of a comprehensive Strategic Plan that outlines the direction for all Law
Enforcement and Detention offices.” However, one Program official with whom we
spoke indicated that BIA had not completed the planning effort. Instead, OJS provided
the draft of a strategic plan, dated June 2006, for its Corrections Division. Upon review
of the Corrections Division document, we discovered a number of shortcomings that
relate to:

       PART Question 2.8, Has the program taken meaningful steps to correct its
       strategic planning deficiencies?

The draft strategic plan lacks:

           time frames. Other than “2006-2007” on the cover page, the draft identifies no time
           frames for the objectives.

           sufficient discussion of context. While this strategic plan groups goals into four
           relevant themes, it includes little explanation of the rationale for the various ideas


                                                  7
           presented or contextual information about the current state of the Program. For
           example, one section proposes maximizing inmate capacity through increased
           contracting — yet it does not first establish existence of a capacity shortage.

           explicit linkage to higher-level strategy. While the plan does open with a statement
           of mission and values, termed “cultural anchors” in the draft, it does not address how
           Corrections Division activities support Program goals. Such linkage would be
           difficult for the Corrections Division to achieve in a meaningful fashion considering
           the current absence of a plan at the OJS level. At a minimum, however, the plan
           should note that the goals align with the DOI “Serving Communities” mission area,
           specifically the end outcome goal to “Advance Quality Communities For Tribes and
           Alaska Natives” and its associated intermediate outcome goal to “Enhance Public
           Safety.”

           explanation of resource expectations. It is unclear what resources (means) are
           currently dedicated to each goal or what additional resources might be made available
           to support each strategy (whether by reallocating other resources within the Program
           or through pursuit of new funding and partnerships).

           information on how results will be measured. None of the 22 measures in the Plan
           contains baselines or targets. Most are simple task statements, made without
           reference to who would lead each strategy or be accountable for each measure.

SUGGESTION 6: Prepare an OJS Strategic Plan.

With only the Corrections Division addressed, OJS will likely be unsuccessful in achieving a
YES from OMB on PART Question 2.8. OJS needs to clarify its objectives and significantly
expand the scope of plans. We suggest developing a Program-wide strategic plan that meets
OMB Circular A-11 guidelines. OJS management should identify specific goals that address
priorities for each major function of the Program over the next several years. If completed in
FY2007, the plan should extend through FY2012.

OMB RECOMMENDATION #3:
DEVELOP BASELINE DATA AND TARGETS FOR PERFORMANCE MEASURES.
At the outset of our review, Department officials reported that,
despite years of effort, the Program’s key performance             Establish performance
measures, recent results, and future-year performance targets      indicators to be used in
                                                                   measuring or assessing relevant
remained unclear. Consequently, they were not able to assess       outputs, service levels, and
how the performance measures related to resource requests or       outcomes
whether the targets, where identified, were appropriate.           …
                                                                   Provide a basis for comparing
The Program has seen significant management turnover in the        actual program results with the
                                                                   established performance goals
last 2 years, and officials are finalizing selection of key
performance measures. OJS is also working with a committee             Government Performance and
formed under the auspices of the Tribal Budget Advisory                        Results Act of 1993



                                                 8
Council to validate and standardize performance information requirements across major federal
programs serving Native Americans.

Establishing a Balanced Set of Measures

For PART purposes, a balanced set of measures includes outcomes, outputs, and at least one
significant efficiency measure. The discussion of performance measures below illustrates the
types of issues that should be considered by BIA in finalizing a set of measures that can be
presented to OMB for consideration. At the end of this discussion, Table 8 (on page 16) shows,
as an example, a set of performance measures that touches upon each of the Program’s major
functions. In developing a set of PART measures, the OJS management team should be fully
engaged in validating a limited number of broad performance measures that are indicative of
Program results, with the understanding that each may be supported by numerous, more detailed
measures within the Program.
Key questions to consider include:

           Can the data be collected in a timely manner?

           Can procedures be implemented and enforced to provide reasonable assurance of the
           accuracy of the data?

           Does the Program have the capacity to allow adequate analysis of the data and to
           report reliable information?

           Would this information be useful in managing the Program?

Currently, many of the Program’s performance measures either lack data or reflect data that are
clearly inconsistent from one year to the next. The latest posting on the OMB ExpectMore.gov
Web site shows 12 measures, 9 of which have no data. Examination of other Program
documents reflects a number of underlying problems with reported data. For example, definition
is a fundamental issue in performance data collection. The Program used an incorrect definition
of the violent crime rate, an important outcome measure for law enforcement. Officials initially
provided a definition — included in the DOI strategic plan — that is inconsistent with guidelines
issued by the FBI through its Uniform Crime Reporting (UCR) Program. In addition to the four
categories of violent crime, the DOI definition included four other crime categories.

Once measures and data elements are properly defined, reporting processes and performance
targets must be based on the same criteria. As indicated in Table 5, reports for the violent crime
rate fluctuated by orders of magnitude. Clearly, OJS did not intend to indicate a more than
hundredfold increase in violent crime from 2003 to 2006. What they did mean to convey is not
at all clear — even after discussion
                                                2000 Baseline                                16,500
with Program officials. Due to
                                                 2003 Report                                  1,195
concerns about these data, Department
officials decided not to publish the             2006 Target                               224,000
results in the DOI Performance and           Table 5. Violent Crime Rate per 100,000 Residents, as
                                                  Published on the ExpectMore.gov Web Site.
Accountability Report.


                                                 9
Outcome Measures

SUGGESTION 7. Consider key indicators of criminal activity as outcome measures.

During the course of our review, Program officials corrected the definition for the Violent
Crime Rate — but were also considering deleting the measure altogether and replacing it with
the Violent Crime Case Clearance Rate. Program officials reasoned that it would be
inappropriate to judge Program performance based on the violent crime rate because too many
factors affect the outcome and they believe that violent crime is likely to increase over the next
several years. However, probability of failure would relate more to the level at which
performance targets are set than to the performance measures selected. The public should expect
that, over time, law enforcement programs will improve public safety by reducing crime. The
fact that officials do not control all factors contributing to the outcome does not relieve the
federal program manager of accountability.

Moving away from an outcome orientation would jeopardize the Program’s favorable ratings for
the following PART questions:
                                                  PART Question 2.1, Does the program have a limited
PART examines factors that the program            number of specific long-term performance measures
or agency may not directly control but
may be able to influence . . .                    that focus on outcomes and meaningfully reflect the
                                                  purpose of the program?
Outcome Measures. Outcomes describe the
intended result of carrying out a program or      PART Question 2.2, Does the program have
activity. They define an event or condition       ambitious targets and timeframes for its long-
that is external to the program or activity and
that is of direct importance to the intended      term measures?
beneficiaries and/or the general public.
                                                  Therefore, we suggest OJS reaffirm the use of crime
                        OMB PART guidance         statistics as the Program’s long-term outcome
                                                  measures for PART purposes.

SUGGESTION 8: Report crime by the number of reported incidents.
                                                                                         Violent Crime
                                                                                       Criminal Homicide
With the level of criminal activity identified as the key outcome of the                  Forcible Rape
Program, management must determine how best to report this information.                     Robbery
In its UCR publications, the FBI reports incident volume and rate per                  Aggravated Assault
100,000 inhabitants for each of the eight Part 1 crime categories noted in              Property Crime
Table 6. The FBI also reports the aggregates of the four violent crimes and                 Burglary
of three property crimes. Arson, though defined as a property crime, is not              Larceny-Theft
included in property crime totals due to inconsistencies in data collection.           Motor Vehicle Theft
                                                                                              Arson
                                                                                            Table 6.
In OJS, field agencies track incident data, although they use disparate
                                                                                          Part 1 Crime
processes. We suggest that OJS use incident counts, by UCR category, as                Categories from the
the Program’s key outcome measures for the time being, because we have                  FBI Publication
concerns with the use of service population figures in the computation of                 “Crime in the
crime rates.                                                                             United States.”



                                                       10
Variance in population estimates for an individual reservation can yield widely divergent
assessments of crime rates, as illustrated in Table 7. For example, BIA’s official estimate of the
service population for the Turtle Mountain Reservation in North Dakota is 29,156 (per the 2003
BIA American Indian Population and Labor Force Report). This figure is equal to the total
enrollment of the Turtle Mountain Band of Chippewa and may simply be more of a political
statement that all enrolled members are eligible for BIA services than a reflection of the
American Indian population on or near the Reservation.

                                                                                         Calculated
     Population                        Source                         Violent Crimes    Violent Crime
      Estimate                                                        Reported, 2005   Rate per 100,000
                    BIA Labor Force Report
       29,156       (American Indians on or in the vicinity of                                75
                    Turtle Mountain lands)
                    Census Bureau Fact Finder                                22
        9,983                                                                                220
                    (American Indians in Rolette County)
                    Census Bureau Fact Finder
        8,331                                                                                264
                    (Turtle Mountain lands, all races)
                          Table 7. Effect of Population Estimates on the Purported
                                 Violent Crime Rate for Turtle Mountain.

By contrast, Census Bureau data for 2000 suggest that the total population (regardless of race) on
Turtle Mountain lands is 8,331, while the American Indian and Alaska Native population in all
of Rolette County (including the Reservation) is 9,983. The different criteria employed by the
tribes and BIA, on the one hand, and the Census Bureau, on the other, do not readily explain this
wide variation in population figures, nor does the passage of 3 years between the enumerated
census and the BIA poll. If this type of divergent quantification extends to the scores of
reservations that receive BIA law enforcement support, the information would be unreliable for
decision-making and PART purposes.

SUGGESTION 9: Redefine the service population for public safety purposes.

BIA compiles the tribes’ estimates of service population as an indicator of the demand for BIA
social services and related programs, which are generally available only to Native Americans.
These estimates may not be appropriate for use by OJS.

In the interest of public safety, most police agencies have arrest authority over both American
Indian and non-Indian suspects on tribal lands despite distinctions in prosecutorial jurisdiction.
Therefore, limiting the population base in police statistics to American Indians can be
misleading. Census Bureau data for 2000 suggest that about three-quarters of Indian country
residents are non-Indian. To overlook this segment of the population could overstate crime rates
considerably. Further, the use of population estimates significantly different from Census
Bureau data would complicate, and potentially invalidate, any attempts to compare Indian
country statistics to other jurisdictions based on UCR data because the FBI relies on Census
Bureau figures.




                                                    11
Rather than adopting BIA population figures across the board, OJS should update its service
population figures for law enforcement use to include the non-Indian residents for those
reservations where officers hold general arrest authority. In addition, OJS should consult with
the tribes to develop a new methodology that takes into consideration both Census Bureau and
tribal data in determining the service population. Once a final, revised approach to estimating
the population is approved and new figures have been validated, OJS can resume reporting
outcomes in terms of both incident volume and crime rates.

Output Measures
                                                                      Output Measures.
In examining key outputs for Program functions, it is important       Outputs describe the level of
to distinguish between operating statistics and potential             activity that will be provided
                                                                      over a period of time, including a
performance measures. Both are useful in program                      description of the characteristics
management. The former, however, may have projections but             (e.g., timeliness) established as
not targets. The latter require a clear objective to increase,        standards for the activity.
maintain, or reduce — as communicated through appropriately           Outputs refer to the internal
set targets. For example, Program managers would track the            activities of a program (i.e., the
                                                                      products and services delivered).
number of service calls as an operating statistic rather than a
performance measure because no target would be set to change                     OMB PART guidance
this number.

SUGGESTION 10: Identify a key output for each major function of the Program.

While one can say that all functions within the Program share the common outcome goal of
reducing crime levels, key annual output measures should be separately identified for each major
function. In identifying the key outputs, Program managers should give some thought to
capturing a limited number of outputs that collectively reflect the majority of the budget. The
Indian Police Academy and the Professional Standards Division are allocated a relatively small
percentage of the OJS budget and could be considered as carrying out support functions. The
major operational functions then are policing, investigation, and detention.

Policing

Arrests and citations issued by patrol officers should be tracked as key operating statistics for the
Program. However, beyond specific enforcement initiatives, the overall number of these outputs
may be driven more by the level of criminal activity than by predetermined targets. Similarly,
the Arrest Rate is a common policing measure that can be determined for a given field agency,
neighborhood, or category of crime. This may be a useful performance measure in limited
circumstances because monitoring arrest rates at this level of detail can trigger further fact
finding. On the other hand, an aggregate Arrest Rate would not stand as a useful Program-wide
performance measure for PART purposes because its use should be coupled with an
understanding of the law enforcement strategies employed during specific times in specific
locations. Changes over time can result from a number of causes, including reluctance of
community members to report offenses or changes in the intensity of enforcement activity.
Instead of a targeted performance measure for police force output, OJS might commission
periodic surveys of community perceptions of police effectiveness and the professionalism of its


                                                 12
dispatchers and patrol officers. The Results of Community Surveys could serve as additional
outcome indicators for Program management overall and for the policing function specifically.
These would not supplant the end outcome goals relating to crime reduction, but could serve as
intermediate indicators to focus the Program’s ongoing efforts to increase effectiveness and to
enhance community relations.

Investigation

Conversely, monitoring the Case Clearance Rate can provide important information about the
Program’s activity, if measured consistently. Under such a measure, the Program would report
the proportion of investigations that lead to an arrest or exceptional disposition. Because the
Case Clearance Rate reflects the Program’s success at identifying perpetrators and gathering
strong evidence, it would be appropriate for use as a key output measure for the Program’s
investigative role. A key challenge in applying this measure effectively would be maintaining
consistency in determining when cases may be closed by exception. The OJS Professional
Standards Division (PSD) should review how field agencies are making this determination and
work toward a standard policy for case closure. Another possibility would be to follow the law
enforcement process a step further and monitor the Prosecutorial Acceptance Rate for federal
cases. As tribal codes and courts vary significantly, we do not believe the Program would be
able to implement a meaningful Program-wide measure for tribal law cases, though tracking this
information may be useful at the local level. Even within the federal system, different
prosecutors’ priorities and court case backlogs could present measurement difficulties.
Therefore, OJS might consider monitoring the Prosecutorial Acceptance Rate on a pilot basis
to determine whether a meaningful baseline can be established. Careful examination of the
results could help the Program develop clear criteria for case closure in the future.

Detention

For the detention role, performance means providing adequate capacity for inmates in
appropriate facilities with qualified staff. Assuming success against certain critical factors such
as preventing escapes or fatalities, Program managers can measure the adequacy of inmate
capacity by comparing actual utilization against the rated capacity of the Program’s detention
centers using the formula:

                   Average Daily Inmate Population            Detention Center
                                                         =
                        Total Rated Capacity                  Utilization Rate

Ideally, OJS should be able to identify, for each facility, the average daily population as well as
the range over a specified time period. If existing data systems do not support reporting of daily
population levels, a periodic “snapshot” can be used — though this can lead to significant
variance. For example, the BJS census of Indian country jails for June 2003 reported an average
utilization of 71 percent for the month, while statistics for only the last day of the month yield a
result of 82 percent.




                                                 13
The Bureau of Prisons (BOP) has set a goal of being over-capacity by 30 percent or more, i.e., an
effective utilization target of at least 130 percent. BOP characterizes this utilization rate as an
outcome measure, as well as an efficiency measure, because they have avoided cost by not
increasing capacity to match the demand for their services. We believe it would be irresponsible
for BIA to adopt this measure, setting Program-wide targets in excess of 100 percent, unless they
have clear strategies to address overcrowding. We suggest BIA characterize the utilization rate
as an output measure, with 100 percent meaning that the Program has delivered exactly the
capacity that was required. Assuming a baseline of 71 percent, the goal would be to increase
utilization.

                                   To tie back to the Corrections Division mission of providing safe
 The Bureau of Indian Affairs
 Division of Corrections           and secure detention facilities, managers might also consider a
 protects Indian communities       more ambitious “effective capacity” approach. They could do so
 by confining American Indian      by deducting from the Program’s rated capacity those facilities
 offenders in safe and secure      that are in poor condition or otherwise fail to meet safety and
 environments . . .
                                   security standards. Following this approach would reinforce the
     BIA Division of Corrections
                                   responsibility that the OFECR and OJS share to improve the
             draft strategic plan. physical condition of Indian country detention centers and to
                                   staff them appropriately. With a substantial number of the
                                   detention centers in poor condition and with BIA facing litigation
over a perceived shortage of funds for staffing and operations, the Program officials would have
to examine current data about the status of each detention center to establish a baseline for this
measure. OJS would likely find many centers to be operating over their effective capacity and
would need to establish a goal of reducing the utilization rate.

Either way, OJS can employ a number of possible strategies to manage the utilization rate.
Managers could increase effective capacity through expanding investment in facilities, staff, and
training; procuring additional capacity by agreement with federal, state, or local agencies; or by
contracting with private sector providers. Excess capacity could be offered for use by others
through consolidation of services within Indian country; franchising to federal, state, or local
counterparts; or by closing underutilized or unfit facilities. The mix of strategies employed
would depend on condition of facilities, construction and renovation plans, staffing and training
levels, local and regional needs, interjurisdictional relationships, and other factors.

As the Corrections Division moves (in conjunction with court systems and community partners)
beyond its detention role into rehabilitation, the Program could institute measures of Recidivism
to monitor the extent to which Indian country inmates become repeat offenders.




                                                 14
Efficiency Measures
                                                                     Efficiency Measures. Simply
                                                                     put, efficiency is the ratio of the
SUGGESTION 11: Develop efficiency measures by comparing              outcome or output to the input of
key outputs to associated costs.                                     any program.

Once OJS has selected key outputs, it can determine cost                        OMB PART guidance
efficiency by comparing the level of output to the cost of the
activities associated with each output. This is also referred to as “input productivity.” For
example, OJS could employ the Average Cost per Service Call to assess the policing function
and the Average Cost per Case to assess the investigation function. Cautious interpretation
would be required because a decline in crime resulting from an increase in enforcement activity
could be reflected as a notable increase in average unit cost. However, if a consistent definition
is applied over time, average unit cost can be used to monitor general trends.

SUGGESTION 12: Refine the ABC System to gather cost data to support identified cost
efficiency measures.

An alternative approach would be to quantify the percentage of resources dedicated to fulfillment
of the core role and to priority activities. The Home Office in the United Kingdom uses a
Frontline Policing measure, which reports the percentage of police officer time spent on
frontline duties. Based on activity analysis, the Home Office estimates a national average
baseline of 61 percent for 2004 and has set a target of an annual 3 percent increase through 2008.

Adopting a measure in BIA like that of the Home Office would likely require revisions to the
existing Activity-Based Costing (ABC) System to include clear definitions of what constitutes
core, or frontline, activity. Use of this measure, however, in conjunction with the existing
measure of Percent of Agencies Implementing Community Policing, could help reinforce
community policing as a Program priority.

At a broader level, ABC data for FY2005 show that the Program had the lowest reported
percentage of costs dedicated to “organizational sustaining activities,” i.e., program management
and support functions, of the nine program areas reviewed by AS/IA staff. At 16 percent, OJS
was one of only two program areas to meet the suggested benchmark of 25 percent. OJS could
consider using this as an overall measure of efficiency. However, we suggest OJS develop a
more ambitious target based on rigorous requirements analysis and benchmarking with
appropriate counterparts in the law enforcement field.

As noted above, AS/IA staff members, with contractor support, have conducted some cost
analysis of BIA programs using data from ABC surveys and other sources of fiscal information.
This type of analysis can yield important insights into program operations. We observed,
however, a number of significant errors in the “FY 05 Cost and Performance Results” report
prepared for OJS.

The draft report noted an average cost per police officer of $60,444 in 2005 and compared this to
the “national average of $91,415 per police officer.” This benchmark was based on information
from BJS. The BJS figure, however, appears to be for operating cost, while the BIA figure is



                                                15
for labor cost alone. Comparing these directly is a fundamental error that would significantly
distort activity-based cost analyses. A more appropriate comparison to the benchmark cited
would have been BIA’s “burdened” cost figure of $117,208 per police officer. Burdened costs
include both labor and non-labor costs, including those of organizational sustaining activities.
Using the proper comparison suggests that BIA law enforcement is more costly, perhaps due to
the ancillary functions associated with running a nationwide program.

A more disconcerting error in the AS/IA report is the inappropriate comparison between data
from another contractor’s report and the Bureau’s ABC data. Average costs of $426,140 per
police officer reported by the contractor were compared with the average cost per police officer
of $117,208 from the FY2005 ABC cost information. This comparison is between a projection
of cumulative cost over a 5-year period, on the one hand, and a single year of ABC cost data
on the other. AS/IA officials report that improvements in ABC data collection are planned;
improvements in analysis and review are also needed.

                                                                    Detention and
                           Policing            Investigation                              Management
                                                                     Corrections

                                          Common Outcome Goal: Reduced Crime
                               Number of: UCR Part 1 Violent Crimes
        Key                               Homicides / Rapes / Robberies / Aggravated Assaults
Long-term Outcomes                        UCR Part 1 Property Crimes
                                          Burglaries / Larcenies / Motor Vehicle Thefts / Arsons

                       Number of Service
                            Calls
                          (no target)
                                                                                       Percent of Agencies
                                              Case Clearance
                                                                   Detention Center       Implementing
                       Number of Arrests           Rate
  Annual Outputs                                                   Utilization Rate        Community
                          (no target)           (increase)
                                                                      (optimize)             Policing
                                                                                            (increase)
                          Number of
                        Citations Issued
                           (no target)

                                                                                        Percent of Program
                           Percentage                              Ratio of Cost to
                                                                                         Dollars Expended
                            of Time            Average Cost        Effective Inmate
                                                                                        for Organizational
 Efficiency Measures      in Frontline           per Case              Capacity
                                                                                            Sustaining
                            Policing             (reduce)              (reduce)
                                                                                             Activities
                           (increase)
                                                                                             (reduce)


    Additional
                           Results of         Prosecutorial                                 Results of
 Outcome Measures                                                     Recidivism
                          Community          Acceptance Rate                               Community
  for Future Use                                                       (reduce)
                            Surveys             (increase)                                   Surveys


                       Table 8. Sample Matrix of Potential Performance Measures




                                                   16
Table 8, above, provides a summary of the measures discussed above. We categorize these
measures as outcomes, outputs, or efficiency measures and list them under headings that reflect
the Program’s major functions. Outcome goals pertaining to crime reduction are common to all
elements of the Program. In addition, we have listed outcome measures that may not be suitable
as PART measures currently, as the Program likely lacks sufficient baseline data. OJS should
consider these for future use. Again, these are but one possible set of measures for discussion;
management officials are responsible for validating a set of performance measures appropriate to
the Program. When the Program selects a final slate of measures to present to OMB, the
examiner will consider which measures best inform the public of the results of their investment
and accept these as PART measures.

Setting Targets                                                    All targets and timeframes must
                                                                   be ambitious — that is, they
Ideally, the Program will consult with its partners to determine   must be set at a level that
results expected over the next several years, considering key      promotes continued
external factors and initially assuming a fixed funding level.     improvement within achievable
Then, they should identify strategies for improvement and set      efficiencies.
ambitious targets they might achieve with additional                          OMB PART guidance
investment or changes in Program management.

Developing realistic targets that are also ambitious can be challenging. Justifications for
moderating targets may be driven by resource issues within the Program or by external factors.
OJS officials should inform the OMB examiner of the challenges faced in providing effective
policing and detention services by citing data and research that substantiate their concerns about
the effects of unemployment, poverty, lack of adequate housing, and alcohol and drug abuse on
crime levels.

Resource Ratios

In addition to outcome, output, and efficiency measures, the Program could use input measures
or resource ratios to compare the level of resources available to some indicator of demand. In
determining resource needs, OJS currently uses a Police Staffing Ratio, which compares the
number of officers assigned to the number of residents served. Clearly, variance in the
population data element, as discussed above in the context of crime rates, can significantly
change the report of a given field office’s resource level and, thereby, affect perceptions of
resource needs.

Problems with Program staffing ratios are not limited to the concerns about population estimates.
OJS does not seem to account for all resources when examining existing staffing levels. Turning
to Turtle Mountain reservation as an example, an OJS analysis cited 21 officers assigned. One
officer accepted a reassignment to the Law Enforcement District 1 office. As a result, we
expected to find 20 officers on board. We discovered, however, that the count recognized only
BIA-funded positions and neglected an additional 10 positions funded by the Tribe or through
grants. BIA would base any decision-making in this case on information that understates the
existing staffing level by 33 percent.



                                                17
                                                                                            Calculated
       Population Estimate               Source                Officers Assigned
                                                                                       Officers per 1,000
               29,156          BIA Labor Force Report                    20                    0.7
                9,983          Census Bureau Fact Finder          (BIA funds only)             2.0
               29,156          BIA Labor Force Report                    30                    1.0
                9,983          Census Bureau Fact Finder         (All fund sources)            3.0
              Table 9. Combined Effect of Population Estimates and Alternative Funding Sources
                    on the Purported Police Staffing Ratio for Turtle Mountain Reservation.


The effect is magnified when combined with differing population estimates in determining Turtle
Mountain’s Police Staffing Ratio, as illustrated in Table 9, above. The OJS analysis indicated a
ratio of 0.7, the least-case scenario from permutations that range all the way to three officers per
thousand served, when citing Census Bureau figures and accounting for all officers regardless of
funding source. We have insufficient information to determine how prevalent this fault may be,
but management should assess the issue Program-wide to gain a clearer understanding of the law
enforcement presence in Indian country.

SUGGESTION 13: Develop an inventory of positions funded by the tribes or by grant
programs and clearly identify them as resources in any needs assessment.

District offices should routinely maintain a field office inventory of both BIA-funded positions
and of positions funded through other means. Chiefs of police should report all positions,
together with information about when the funding is due to expire, so district and headquarters
personnel can assess the stability of these alternative funding arrangements and plan accordingly.

This suggestion complements OMB’s recommendation regarding improved coordination with
the COPS Program as we previously discussed. While we support the call to coordinate
activities at the national level, the most direct interchange with the tribes takes place in the field.
As tribes pursue multiple avenues to meet their communities’ needs, OJS needs to capture all
information to more fully inform BIA decision-making.

Maintaining the position inventory as we suggest will provide evidence useful for a number of
PART questions, including:

    Question 1.4, Is the program design free of major flaws that would limit the
    program’s effectiveness or efficiency?

    Question 1.5, Is the program effectively targeted, so program resources reach
    intended beneficiaries and/or otherwise address the program’s purpose directly?

    Question 2.7, Are…resource needs presented in a complete and transparent manner in
    the program’s budget?




                                                     18
SUGGESTION 14: Implement more rigorous requirements analysis.

OJS officials report using National Institute of Corrections (NIC) standards to determine staffing
requirements for Indian country detention facilities. Just as these requirements are not
determined through simple staff-to-inmate ratios, the number of police officers required should
not be determined based simply upon the number of American Indians in the vicinity. The
Police Staffing Ratio, if corrected to account for all funding sources as discussed above, may
provide some comparative information about the level of resources consumed in one community
versus another. To better determine requirements, however, analysis should be based on the
demand for police services. Management should consider workload drivers (such as the
number of service calls), analyses of the volume and nature of crimes reported for each location,
and other factors (such as officer safety and the geographic extent of the jurisdiction).

Performance Data Collection and Analysis

Lack of clear identification and definition of key performance measures and operating statistics
can lead field offices to report data that may not be needed and to use different reporting formats
and inconsistent criteria. To examine procedures in effect in OJS, we visited the Law
Enforcement District 1 office in Aberdeen, South Dakota, and two of its associated field sites.

BIA officials at the Turtle Mountain reservation in North Dakota face challenges in data
management. There, BIA staff use the Crime Reporting Information System (CRIS), together
                             with a number of Microsoft Access databases designed by the
                             police themselves. Piecing together information from multiple
                             databases provides no automated procedure to check for duplicate
                             entries, and field officials describe CRIS as an obsolete system that
                             is not effective in organizing or retrieving information. The System
                             does not provide necessary sorting or filtering capabilities. To
                             report crime and workload statistics, the staff must, therefore, print
                             the data log and then count the number of lines with given entries.
   BIA Patrol Car at Turtle   The resulting information should be input to Lotus Notes on a
  Mountain (OIG staff photo)
                              monthly basis. With more than 600 service calls in an average
month, this approach is time-consuming and provides considerable opportunity for error. Local
OJS officials report that BIA has discouraged continued reliance on CRIS but has not provided
any other means of tracking data from origination to final disposition. At the same time, the
longstanding Cobell v. Kempthorne injunction on data connectivity has resulted in a need for the
Turtle Mountain office to operate two separate systems — one under BIA auspices and one
owned and operated by the tribe — in order to share information with prosecutors and the courts.

Field officials use these systems to track calls for service, radio communications, arrests or
citations, and investigations, with separate logs for cases investigated under the Tribal Code and
for those pursued under federal law. They report using service call data to determine priorities
for assignment of school resource officers. In theory, the data could also be useful in deploying
police resources to residential and commercial areas, but further use of performance information
to manage operations is limited in practice because the high service call volume keeps every
available officer engaged in call response.


                                                19
                                  In contrast to the situation at Turtle Mountain, the Rosebud
                                  Sioux Tribe uses advanced information technology. The Tribe
                                  provides law enforcement services there under a Public Law
                                  93-638 contract. Federal grant funding supports the Tribe’s use
                                  of a system from The Creative Information Systems Company
                                  (CISCO). Both local and district office officials describe the
                                  CISCO System as state-of-the-art. Not only does it track the
                                  operational data required by police, it integrates applications for
                                  detention managers, prosecutors, and tribal court officials.

                                 The Tribal Program is also notable for its pursuit of other
    Rosebud Sioux Tribe Law      improvements in technology. Officials report that all patrol cars
  Enforcement Services Insignia  are equipped with vehicle cameras and that officers will soon be
        (OIG staff photo)
                                 able to generate reports in the field using rugged notebook
computers. Long-term plans include expanding wireless access to the CISCO System from its
current 1-mile radius. Cellular technology will allow a much broader coverage, and officers will
be able to save considerable time, given that the Rosebud jurisdiction spans more than 5,000
square miles across five counties.

The chief of police reports that he routinely shares information from the System in community
meetings and Tribal Council sessions. Authorities use System-generated statistics to assign
patrol officers to each of the reservation’s 20 communities, identify priorities for special
enforcement programs, and prioritize needed transportation improvements on the reservation.
Rosebud officials include CISCO printouts in the hard copy reports they provide to BIA on a
monthly, quarterly, and annual basis. Rosebud officials hope that modifications to be made in
FY2007 will allow their office to become the first site to fully comply with National Highway
Transportation Safety Administration (NHTSA) standards for vehicle accident statistics. Once
modifications are complete, they will be able to automatically transfer traffic safety data to
highway safety officials in Albuquerque.

Even with advanced technology in place, human error can interfere with an organization’s ability
to provide reliable performance data, and we found errors that suggest inadequate review. For
example, 2003 to 2005 traffic safety information produced by the Rosebud Sioux Tribe and
distributed by highway safety officials contains numbers that conflict, do not add up, or were
apparently duplicated from one year to the next. Similarly, a recent quarterly report to BIA
shows different data for the same period (fourth quarter 2005) from the previous year’s report.

To begin addressing some of its data management challenges, OJS is prototyping a pilot system
to unify data collection. The system enables Program officials to issue a single data call to all
district and field offices using Lotus Notes on the Bureau intranet. Individual users may read
records from other field sites, but access for data entry is restricted. Programmers have
embedded standard definitions for key data elements for easy reference. Reported data require
electronic approval by management officials in the field, who are responsible for data
verification and control.




                                                  20
BIA field offices are to input their data on at least a quarterly basis, though monthly reporting is
preferred. District office staffers solicit data from tribally run programs outside the system and
then input responses. This method consumes time and introduces opportunities for transcription
error because staff members often receive hard-copy responses in a variety of formats. In
addition, they sometimes receive responses only once a year, so incident data may not be
recorded in the appropriate quarter.

Use of the Lotus Notes-based system is an improvement, but without final approval of
performance measures for the Program, the system design cannot be validated. Further, it is a
repository that requires manual transfer of data from other systems in the field, rather than a
more efficient and less error-prone standardized workflow system that would integrate field
operating requirements with management information needs. Visiting only 2 of approximately
200 field locations, we encountered CISCO, CRIS, and at least 4 separate Access databases.
Users manually transfer any necessary data between these systems or from these systems into
Notes.

Despite regular communication between field offices, Turtle Mountain officials developed their
own databases. They did not copy from another office to capitalize on the time already invested,
nor do they report sharing their database structures with other offices. According to the field
officials with whom we spoke, each office makes its own data management determinations.
While the tribally run departments are free to opt for other solutions, it makes little sense for
each of BIA’s many field offices to create their own ad-hoc systems.

As noted in the discussion of interagency collaboration, DOI and its
bureaus are working to develop a system for incident data
collection to improve reporting under the Uniform Federal Crime
Reporting Act of 1988. The Incident Management and Reporting
System, or IMARS, is scheduled for deployment of core functions
by September 2008 and has the potential for additional capabilities
to be integrated over the ensuing 2 years. BIA is participating in
the development of IMARS, but it is unclear to what extent BIA
offices will be able to connect to the System or whether the tribally
run field agencies can be required to do so. The IMARS project
                                                                           Incident Management and
manager is preparing a contingency plan concerning BIA
                                                                            Reporting System Logo
participation as a potential project risk.

SUGGESTION 15: Conduct market research and benchmarking to assess the feasibility and
cost of procuring a more comprehensive information technology solution.

As we have seen demonstrated at Rosebud, commercial technology is available to address law
enforcement needs at the operational level and to provide analytic and reporting capabilities for
management information. Should OJS managers pursue an end-to-end solution, they would have
to consider modifications to the IMARS system alongside off-the-shelf alternatives such as
CISCO or CrimeStar. Program officials could consider contract incentives or cost-sharing grants
to bring tribal departments online, as well (either through direct access, or through standard data
transfer protocols).



                                                 21
An investment in improved information technology (subject to current court restrictions) should
enhance management’s ability to oversee Program operations and provide tools to strengthen
decision-making. If standardized reporting requirements are implemented with appropriate
controls, analysis of incident data and investigative information can be used to support planning
for more effective deployment of law enforcement resources. Effective analysis requires access
to reliable data.

When analyzing crime data and planning law enforcement activities, many community-policing
organizations cite the SARA model, which acknowledges four stages in identifying and solving
problems. We summarize the stages below.

           Scanning — monitoring the environment to identify issues of concern to the police
           and public.

           Analysis — reviewing incident data (offense, offender, victim, location, time) to
           identify trends, commonalities, and possible causes and consequences.

           Response — devising, selecting, and implementing potential solutions to clearly
           defined problems.

           Assessment — comparing incident data prior to and after the response to determine
           effectiveness.

We encountered numerous problems in examining OJS performance information, operating
statistics, and other analyses from within OJS or elsewhere in AS/IA. These problems suggest
that the Program currently lacks the necessary analytical capacity to complete the SARA cycle in
support of their field offices or even to assess the quality of service provided when consultants
are engaged. For example, OJS engaged a private contractor to perform a gap analysis of the
Program’s staffing needs. In its final report, the contractor cited UCR statistics from 2004 (the
latest full year available at the time of the analysis) in providing a standard value to use in
calculating staffing requirements. When we checked the reference, we found that the UCR
report read, “of the population groups labeled city, the cities of 10,000 or less in population had
the highest rate, 3.3 officers per 1,000 inhabitants . . .”. Using this benchmark resulted in a
purported requirement of 4,409 law enforcement officials. The contractor’s work is cited in the
Indian Affairs budget justification. However, because Census Bureau data characterize much of
Indian country as rural, using the UCR-reported average for non-metropolitan counties rather
than for small cities might have been more appropriate. In the 2004 UCR report, this value was
2.7 officers per 1,000 inhabitants. Setting aside other considerations, such as concerns about
population estimates or consistency in counting only sworn officers, the contractor’s report may
have overstated the baseline staffing requirement by as much as 22 percent for much of Indian
country. As we indicate in our discussion of the Police Staffing Ratio (see pages 17-18), we
believe the Program would benefit from analysis of the characteristics of the communities
receiving services, instead of basing requirements on national averages. National averages may
not be applicable to Indian country circumstances.




                                                22
SUGGESTION 16: Work with BJS to improve compilation and organization of existing data.

To address this situation, we suggest that OJS pursue strategies to improve its in-house analytical
capabilities. In the near term, we suggest that OJS pursue expanded interaction with BJS, an
agency with considerable experience in gathering, managing, and analyzing volumes of data and
in generating informative reports regarding crime statistics and the administration of law
enforcement programs. Recruiting a detailee from BJS would be similar to the approach recently
used when a detailee from BOP was assigned to help BIA address daunting challenges in the
operation and management of detention centers. Together, BIA and BJS should lay groundwork
for a network of analysts to collaboratively publish an annual report of crime statistics that cover
Indian country. The report should aggregate data from all reservations. Arizona, Idaho, and
Virginia are examples of states that provide consolidated reports of data compiled through
county and municipal officials.

SUGGESTION 17: Invest in crime analysis capacity within BIA.

BIA managers should consider a budget increase of five to eight full-time equivalents (FTEs)
dedicated to improving OJS data quality and in-house analytical capacity. Recent requests have
focused on increasing staffing levels in the field. While increasing field staff may indeed have
the greatest noticeable effect, it is also important for Program managers to have sound
information on which to base resource deployment decisions. An increase of up to eight FTEs
for analytical support, when compared to recent requests for frontline staffing increases, is in line
with the Program’s reported cost ratio for organizational sustaining activities as discussed on
page 15.

If the request for additional analytical staff were to be approved, the top priority should be to
assign one analyst to each of Districts 1 through 5, where the Law Enforcement Division
currently employs five staff members to oversee as many as 53 field agencies. Next, OJS should
look into assigning another three FTEs — one to Law Enforcement District 6, where a staff of
three oversees tribal law enforcement contracts in the Eastern Region — one to the division
headquarters in Albuquerque — and one to the Program headquarters in Washington, DC. The
primary job functions of these crime analysts would be to 1) provide technical assistance to field
offices in managing data; 2) review and validate data collected from these offices on a regular
basis; and 3) provide analyses to management officials at both headquarters and in the field.
Such analyses would support the generation of general Program publications, as well as the
cooperative identification and systematic study of issues of concern to field offices. In addition,
these analysts could serve as the “core team” for implementation of expanded program
evaluation, as we discuss below.

Budget and Performance Integration

OJS considers performance information when allocating new resources, but not when analyzing
base funding. In its deliberations over the FY2006 budget, the House Committee on
Appropriations directed BIA to report on the distribution of new funding, noting that the
resources should be applied to “. . . high priority law enforcement needs in Indian country
including, but not limited to, community policing programs and drug enforcement.”



                                                 23
Program officials prepared a response to the Committee based on an analysis of key performance
information (i.e., crime rates), current resource ratios, and related external factors, such as
proximity to international borders or reports of drug prevalence. While the approach is
conceptually sound, we have a number of concerns with the underlying data. Indeed, review of
the Program’s internal documentation suggests that management is aware that the “high-crime”
reservations are not always those with the highest calculated crime rate.

SUGGESTION 18: Realign resources within the base Program before requesting additional
funding.

The report and the underlying analysis reflect consideration of performance information for the
distribution of $3.9 million — a mere 2 percent of the budget. The Program’s base funding
should also be managed with the goal of maximizing performance by deploying law enforcement
resources where they are needed most, but we found no evidence of significant changes in the 98
percent of Program funds that constitute the base budget. Analysis of performance information
does not seem to have resulted in permanent realignment of resources from relatively “low
crime, high staff” offices to “high crime, low staff” offices.

Indeed, there are many considerations in reallocating funds or moving staff from one location to
another — particularly when these changes involve government-to-government relationships.
Such changes do occur on a temporary basis during times of crisis. District officials coordinate
personnel details between field agencies to meet high-priority needs, such as conducting special
investigations, policing special events, or filling key positions. In order to support long-term
resource shifts, the Program should gather reliable performance information and conduct
analyses to show how existing resources could be used to meet the greatest needs. However,
OJS does not seem to systematically realign resources to satisfy priority needs (or to identify
savings) before developing budget requests.

Strengthening performance data verification and analysis and expanding performance-based
budget analysis beyond new funding into the base budget could improve the Program’s standing
in regard to several PART questions. These include:

       PART Question 1.5, Is the program effectively targeted, so program resources reach
       intended beneficiaries and/or otherwise address the program’s purpose directly?

       PART Question 2.7, Are budget requests explicitly tied to accomplishment of the annual
       and long-term performance goals, and are the resource needs presented in a complete and
       transparent manner in the program’s budget?

       PART Question 3.1, Does the agency regularly collect timely and credible performance
       information, including information from key program partners, and use it to manage the
       program and improve performance?




                                               24
Program Efficiencies

SUGGESTION 19: Inform OMB of cost-saving efforts.

Although OMB has procedures to review consistency in its application of PART standards to
programs across government, there are times when inconsistencies are evident nonetheless. Like
BIA, the Drug Enforcement Administration (DEA) was subject to PART review in 2003. With a
rising budget and, at the same time, a lack of information about effectiveness and efficiency, BIA
received a NO in response to:

       PART Question 4.3, Does the program demonstrate improved efficiencies or cost
       effectiveness in achieving program performance goals each year?

DEA, on the other hand, was exempted from review under this question based on OMB’s
conclusion that, “efficiency measures are not appropriate for law enforcement programs”
and “. . . these types of measures . . . are not helpful in determining a law enforcement program’s
effectiveness.” While we would agree that considerable caution is required in balancing cost
efficiency against program effectiveness, operating efficiently can free resources for other
Program priorities that would ultimately enhance law enforcement effectiveness.

We believe it is unlikely that OMB exempt BIA from PART Question 4.3 in the next review. To
succeed in the PART process, BIA will need to continue to pursue strategies for efficient law
enforcement operations, to explore approaches to efficiency measurement, and to communicate
cost savings to the OMB examiner.

Because law enforcement is an inherently governmental function not subject to competitive
sourcing, OMB exempted the Program from review under:

       PART Question 3.4, Does the program have procedures (e.g., competitive sourcing/cost
       comparisons, IT improvements, appropriate incentives) to measure and achieve
       efficiencies and cost effectiveness in program execution?

As OMB notes in its PART guidance for 2006, “there are several ways to demonstrate that a
program has established procedures for . . . improving efficiency.” Therefore, Program officials
should be prepared to describe 1) other cost saving strategies they have employed since 2003 and
2) what they have planned for upcoming years. Examples could include consolidating detention
services, improving information technology to minimize field reporting burdens, or centralizing
dispatch services across police, fire, and emergency medical services.




                                                25
OMB RECOMMENDATION #4:
DEVELOP A PROCESS FOR AND SCHEDULE INDEPENDENT PROGRAM
EVALUATIONS.
                                                                        Although providing safety to
                                                                        citizens is one of the most
Law enforcement is a basic function of government, and the              important tasks of the
provision of police protection and related services is a fundamental    government, policy makers
responsibility. Accordingly, law enforcement services — as a            tend to have very limited
whole — may not be suitable for the type of comprehensive impact        information on how to achieve
evaluation emphasized in OMB guidance. It would be unethical to         this goal.
withhold law enforcement services from one part of Indian country                   RAND dissertation
and provide them to another to compare the results.                              on police effectiveness


Consequently, OJS must rely on more narrowly focused evaluative activities, including
independent reviews that provide information about the effectiveness or efficiency of specific
policies, strategies, and processes. OJS must make sure that the OMB examiner takes into
account the nature of law enforcement in Indian country when he or she reviews OJS evaluation
activities. The examiner may then give credit for the full range of recent program review efforts.

In keeping with the PART process, the goal of program reviews is to improve planning, program
management, and, ultimately, results. Such reviews, collectively, may satisfy OMB
requirements for program evaluation. For example, both the Environmental Protection Agency
criminal enforcement and the BOP operations programs received affirmative responses for the
following PART questions by citing various program reviews rather than impact evaluations.

       Question 2.6, Are independent and quality evaluations of sufficient scope and quality
       [sic] conducted on a regular basis or as needed to support program improvements and
       evaluate effectiveness and relevance to the problem, interest, or need?

       Question 4.5, Do independent evaluations of sufficient scope and quality indicate that the
       program is effective and achieving results?

Recent Evaluative Activities

SUGGESTION 20: Inform OMB of recent OIG and DOI
reviews and related Program improvements.

Inspector General Reports

As noted by OMB in its 2003 PART review, the DOI OIG
published a review of law enforcement activities across
DOI in 2002. A 2006 follow-up report indicated that of six
recommendations, BIA had implemented four and
achieved moderate progress toward implementing the other
two. A comprehensive OIG assessment of Indian detention


                                               26
facilities in 2004 covered oversight and coordination, safety and security, facility staffing and
maintenance, funding, and training. Though not verified in this review, OJS and OFECR
officials report having closed 16 of the 25 recommendations in that report.

Departmental Review

The 2003 PART notes that internal affairs investigations deal with allegations of police
misconduct. The Internal Affairs Unit (IAU) in the OJS Professional Standards Division (PSD),
a national program office, conducts these investigations. The IAU was subject to a policy
compliance evaluation conducted in July 2006 by the DOI OLESEM Professional Responsibility
Division. The inspection team consisted of two OLESEM representatives and one BLM special
agent, which afforded a degree of independence. The review concluded that “. . . although there
are some issues that need resolution, the BIA IAU is operating in an efficient and professional
manner.”

OJS should continue to implement the OIG and DOI recommendations, update additional
progress in those areas of less than full compliance, and report these assessments and follow up
activities to OMB as evidence of independent evaluation.

Program Reviews

SUGGESTION 21: Emphasize the independence and breadth of PSD activities.

Though internal to the Program, PSD review teams do have a degree of independence
concerning the field agencies they review. The PSD activities we note below provide evaluative
information that feeds into program improvement efforts, and OJS should present them to the
OMB examiner as a part of its overall evaluation effort.

       Inspections. PSD cooperates with the AS/IA Division of Safety and Risk Management
       and the OFECR in completing inspections of Indian country detention facilities. The
       inspection process is adapted from the U.S. Marshals Service and is intended to assess
       each facility’s compliance with established guidelines based on NIC standards. The
       reports feed into management deliberations on the priority for physical renovations,
       operational changes, and staffing adjustments — or facility closures when the safety and
       health of inmates and staff cannot be assured.

       Case File Management Reviews. PSD performs reviews of records in OJS criminal
       investigation units to assure proper documentation and to determine case clearance rates
       and disposition.

Additional Activities for Program Evaluation

SUGGESTION 22: Pursue external validation of the PSD inspection process.

OJS could strengthen its position for the next PART review by having the American Correctional
Association or another outside organization validate the PSD inspection process, much as the



                                                 27
OLESEM review of the Internal Affairs unit did. This would provide additional assurance that
PSD has interpreted and applied the standards correctly.

SUGGESTION 23: Secure outside expertise in developing a 5-year program evaluation plan.

OJS should contract for a program evaluation expert with law enforcement experience to meet
with the management team. The team should include district special agents in charge and would
develop evaluation questions focused on assessing and improving operational performance. For
example, it may be possible to compare community
perceptions of the effectiveness of BIA-operated and      To sustain a credible performance-based
Public Law 93-638 agencies that fall within the           focus in budgeting and ensure fair
Program’s purview or to compare inmate costs as the       assessment of agency and program
                                                          effectiveness, federal agencies, as well as
Program seeks to consolidate detention services.          those third parties that implement
                                                             federal programs, will require significant
To keep the focus on questions that will meet OMB’s         improvements in evaluation information
criteria for evaluation quality and scope, the              and capacity.
evaluation expert should be provided with a current
                                                                    Government Accountability Office
copy of the PART guidance. Once the team has
agreed upon evaluation questions, members should
develop a 5-year plan to conduct studies that will answer those questions. It is important that
proposed studies account for demographic variables, such as urban/rural categorization, racial
and cultural homogeneity or diversity, and unemployment and poverty rates, as well as the
jurisdictional complexities unique to Indian country law enforcement. The resulting plan should
include estimated costs so that a request for funding the evaluation effort can be included with
the next budget.

SUGGESTION 24: Build evaluation into implementation plans as new strategies and
programs are initiated.

As resources become available for new initiatives, such as expanded counter-methamphetamine
programs, OJS should build an evaluation component into the implementation plans.
Implementation plans should clearly outline the goals to be achieved, and how progress and
results will be assessed. This would allow the agency to gauge effectiveness of the initiative at
all levels of implementation and to document lessons learned.

SUGGESTION 25: Benchmark as part of the program evaluation strategy.

In 2003, OMB gave BIA a NO in response to:

       PART Question 4.4, Does the performance of this program compare favorably to other
       programs, including government, private, etc., that have similar purpose and goals?

In contrast, OMB exempted DEA from this question because similar programs “. . . do not have
good performance indicators so a comparison is difficult to make.” While making appropriate
comparisons between programs is indeed challenging, reasonable statistical benchmarks can be




                                                 28
found for OJS, and program evaluation can provide useful information at many levels.
Therefore, we believe it is unlikely OMB will carry this exemption into future PART reviews.

Based on BIA’s own portrayal of the challenges faced by the Program, we would presume a NO
for this question until reliable data demonstrate a favorable comparison between crime levels in
Indian country and national averages (or other appropriate benchmarks available through the
UCR program or the BJS). In selecting benchmarks, BIA can, to some degree, limit the pool of
counterparts to departments facing similar circumstances and challenges. However, doing so
would raise issues in validating benchmark data. Criteria used in selecting benchmarks or
benchmarking partners should be fully documented and consistently applied.

Collecting Valid and Reliable Evaluative Information

The ability to effectively evaluate aspects of program performance on a bureau-wide basis is
dependent on the capacity to collect and record data accurately and consistently across law
enforcement agencies. We discuss this issue in depth under OMB Recommendation #3, but note
here that the availability of accurate and reliable data directly affects the ability to conduct
evaluation.




                                               29
                  APPENDIX A: HISTORY AND USE OF THE PART

Planning and performance In 1993, the Congress found federal managers to be
           monitoring are “disadvantaged in their efforts to improve program efficiency
          required by law and effectiveness, because of insufficient articulation of
                          program goals and inadequate information on program
                          performance.” The Government Performance and Results Act
                          (Public Law 103-62), or GPRA, was passed to promote a focus
                          on results by requiring federal agencies to engage in strategic
                          planning and performance reporting.

  Objectives and results of   The “President’s Management Agenda,” which includes a U.S.
     federal programs are     Government-wide initiative to improve budget and performance
   assessed during budget     integration, was published in 2001. The Agenda calls for
              formulation     agencies to monitor program performance and to incorporate
                              performance review into budgetary decision-making.

                              To support this initiative, the Office of Management and Budget
                              (OMB) instituted a new activity within the context of budget
                              formulation. OMB uses a standard questionnaire called the
                              Program Assessment Rating Tool (PART) to engage federal
                              programs in a review of program design, strategic planning,
                              program management, and the achievement of results that
                              demonstrate value for the taxpayer. Through the PART process,
                              OMB rates programs as Effective, Moderately Effective,
                              Adequate, or Ineffective. Alternatively, OMB deems programs
                              that are unable to provide reliable performance information
                              (thus precluding assignment of a program rating) Results Not
                              Demonstrated and recommends establishment or improvement
                              of mechanisms for performance measurement.

OMB has found that many Of the federal programs assessed between 2002 and 2006, OMB
       DOI programs lack rated only 17 percent Effective and placed 21 percent in the
 performance information category Results Not Demonstrated. Within the Department
                         of the Interior (DOI), OMB assessed 73 programs, reflecting
                         over $9 billion dollars in annual budget authority. Of these,
                         OMB rated only eight Effective. OMB examiners were unable
                         to determine whether 22 of these programs, reflecting nearly
                         half of the assessed spending, were performing satisfactorily due
                         to the lack of reliable performance information.
                                         Federal       DOI
       PART Ratings, 2002-2006
                                        Programs    Programs
 Effective                              166 (17%)    8 (11%)
 Moderately Effective                   299 (31%)   21 (29%)
 Adequate                               276 (28%)   22 (30%)
 Ineffective                             27 (3%)     0 (0%)
             Results Not Demonstrated   209 (21%)   22 (30%)
     TOTAL NUMBER OF PROGRAMS              977          73

PART findings can be used to 1) justify termination or
substantial curtailment of federal programs, 2) support
legislative or fiscal enhancements, or 3) promote management
improvements. OMB publishes PART results on its
ExpectMore.gov Web site, together with recommended
improvement actions for every program it has assessed. Agency
officials and program managers are expected to follow up on
these recommendations and to keep OMB, and ultimately the
public, apprised of progress through updates of the information
posted to ExpectMore.gov and through internal
communications. OMB then reassesses programs on schedules
developed in consultation with responsible agencies.




              A-2
                  APPENDIX B: TABLE OF SUGGESTIONS

NUMBER                            SUGGESTION                                    PAGE

                                  OVERVIEW
         Expand the scope of the PART to include public safety facilities
  1                                                                              3
         funding and activities.
  2      Brief OMB on law enforcement jurisdiction in Indian country.            4

DEVELOP A MEMORANDUM OF UNDERSTANDING WITH THE DEPARTMENT OF JUSTICE
                          ON THE COPS PROGRAM
  3      Implement and expand the interagency agreement.          5
  4      Collaborate with DOJ on planning.                                       6
  5      Designate a partnership coordinator.                                    6

    DEVELOP A STRATEGIC PLAN TO GUIDE MANAGEMENT AND PERFORMANCE
                            IMPROVEMENT EFFORTS
  6      Prepare an OJS Strategic Plan.                          8

    DEVELOP BASELINE DATA AND TARGETS FOR PERFORMANCE MEASURES
  7    Consider key indicators of criminal activity as outcome measures.         10
  8      Report crime by the number of reported incidents.                       10
  9      Redefine the service population for public safety purposes.             11
  10     Identify a key output for each major function of the program.           12
         Develop efficiency measures by comparing key outputs to
  11                                                                             15
         associated costs.
         Refine the ABC system to gather cost data to support identified cost
  12                                                                             15
         efficiency measures.
         Develop an inventory of positions funded by the tribes or by grant
  13     programs, and clearly identify these resources in any needs             18
         assessment.
  14     Implement more rigorous requirements analysis.                          19
         Conduct market research and benchmarking to assess the feasibility
  15     and cost of procuring a more comprehensive information technology       21
         solution.
         Work with the Bureau of Justice Statistics to improve compilation
  16                                                                             23
         and organization of existing data.
NUMBER                             SUGGESTION                                  PAGE
  17      Invest in crime analysis capacity within BIA.                         23
          Realign resources within the base Program before requesting
  18                                                                            24
          additional funding.
  19      Inform OMB of cost-saving efforts.                                    25

         DEVELOP A PROCESS FOR AND SCHEDULE PROGRAM EVALUATIONS
          Inform OMB of recent OIG and DOI reviews and related program
  20                                                                            26
          improvements.
  21      Emphasize the independence and breadth of PSD activities.             27
  22      Pursue external validation of PSD’s inspection process.               27
          Secure outside expertise in developing a 5-year program evaluation
  23                                                                            28
          plan.
          Build evaluation into implementation plans as new strategies and
  24                                                                            28
          programs are initiated.
  25      Benchmark as part of the program evaluation strategy.                 28




                                        B-2
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
